Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   EXCLUDED PROVIDERS IN
   MEDICAID MANAGED CARE
          ENTITIES




                    Daniel R. Levinson
                     Inspector General

                      February 2012
                     OEI-07-09-00630
Executive Summary: Excluded Providers in Medicaid Managed Care Entities
OEI-07-09-00630

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) is authorized to exclude certain individuals and
entities (providers) from participating in federally funded health care programs. These
programs, such as Medicaid managed care, are prohibited from paying for any items or
services furnished, ordered, or prescribed by an excluded provider or paying anyone who
contracts with an excluded provider. Nationally, approximately 70 percent of Medicaid
recipients receive some or all of their Medicaid services through managed care.
However, little was known about how Medicaid managed care entities (MCE) prevent
excluded providers from entering their provider networks, or how successful MCEs are in
preventing excluded providers from entering their provider networks.

HOW WE DID THIS STUDY
For 12 selected MCEs in 10 States, we matched OIG exclusions data, including
approximately 46,000 providers, and MCE provider network data, including
approximately 277,000 providers, to identify excluded providers. We also interviewed
MCE and State Medicaid staff, and we reviewed contracts between MCEs and States to
identify their safeguards to prevent excluded providers from enrolling in Medicaid.
Finally, we asked each MCE to provide information on payments made to each excluded
provider identified.

WHAT WE FOUND
Four of the twelve MCEs reviewed had 11 excluded providers enrolled in their provider
networks in 2009. Four of these providers were paid a total of $40,306 in 2009; the
remaining seven providers received no payments during our review. In 2009,
approximately 46,000 individuals and entities were listed on OIG’s exclusion list. All
12 MCEs and all 10 States reviewed had safeguards to identify excluded providers.
Eleven of the twelve selected MCEs checked OIG’s List of Excluded Individuals and
Entities to identify excluded providers. MCEs checked providers’ exclusion statuses at
initial enrollment and rechecked them at varying frequencies ranging from monthly to
every 3 years. Six of the ten States required providers enrolled in MCE networks to first
enroll in the State fee-for-service Medicaid program. Two other States had databases that
combined several sources of exclusion information available to their MCEs. In the two
remaining States, each provider was required to undergo an extensive background check
as part of the provider enrollment process.

WHAT WE RECOMMEND
We recognize that the number of excluded providers that we identified is small. CMS
cited the small number of providers identified as its reason for not concurring with the
recommendation made in the draft report. We updated the final report, recommending
that CMS periodically remind States of their obligation to ensure that no excluded
providers receive Medicaid payments. CMS could develop a State Medicaid Director
letter that includes information from this report on how certain failures led to the
inclusion of excluded providers in MCE provider networks.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................8
           Four of the twelve MCEs reviewed had 11 excluded providers
           enrolled in their provider networks; 4 of these providers were
           paid a total of $40,306 .....................................................................8
           All 12 MCEs and all 10 States reviewed had safeguards to
           identify excluded providers; the specific safeguards varied
           among MCEs and States ................................................................10
Recommendations ......................................................................................13
           Agency Comments and Office of Inspector General Response.....13
Appendixes ................................................................................................15
           A: Selected Medicaid Managed Care Entities ..............................15
           B: Agency Comments ...................................................................16
Acknowledgments......................................................................................18
             OBJECTIVES
             To determine the extent to which:
             1. selected Medicaid managed care entities (MCEs) enrolled Office of
                     Inspector General (OIG)-excluded individuals and entities in their
                     provider networks in 2009; and
             2. selected Medicaid MCEs and States have safeguards in place to
                     prevent excluded individuals and entities from enrolling in their
                     Medicaid managed care provider networks.

             BACKGROUND
             Medicaid Managed Care
             Nationally, approximately 70 percent of Medicaid recipients receive some
             or all of their Medicaid services through managed care. Capitated
             managed care is the most common arrangement for Medicaid managed
             care. Unlike claims for services paid on a fee-for-service basis—in which
             State Medicaid programs pay providers for each service rendered—in
             capitated managed care, State Medicaid programs pay MCEs a fixed rate
             per enrolled Medicaid beneficiary in exchange for all services included in
             the plan.
             Office of Inspector General Exclusions
             To protect patients and the integrity of federally funded health care
             programs such as Medicaid managed care, OIG is authorized to exclude
             certain individuals and entities (e.g., physician group practices,
             transportation companies, hospitals) from participating in such programs. 1
             The bases for exclusions commonly include convictions for
             program-related fraud and patient abuse, and actions by licensing boards
             (e.g., suspension or revocation of a medical license). When OIG excludes
             individuals or entities (providers), it notifies the excluded providers, the
             Centers for Medicare & Medicaid Services (CMS), and State Medicaid
             agencies in the States in which the providers were enrolled in Medicaid.
             OIG also reports the exclusion to a number of databases used for licensing
             and credentialing providers (described further below). In 2009,
             approximately 46,000 individuals and entities were listed on OIG’s
             exclusion list.
             Medicaid and other federally funded health care programs are prohibited
             from paying for any items or services furnished, ordered, or prescribed by



             1
                  OIG exclusion authorities can be found in Sections 1128, 1128A, 1156, and 1867 of the Social Security Act.


OEI-07-09-00630             Excluded Providers in Medicaid Managed Care Entities                                               1
             an excluded provider. 2 This prohibition applies to payments to the
             excluded provider and anyone who contracts with the excluded provider.
             The payment prohibition also applies to all administrative and
             management services furnished by an excluded provider, regardless of
             which entity submits the claim for reimbursement. OIG can impose civil
             monetary penalties on entities that contract with excluded providers. 3
             Limited exceptions allow payments for certain services (e.g., emergency
             services) furnished by excluded providers. Additionally, States can
             request that the Secretary of Health and Human Services waive a
             provider’s exclusion from a State health program. 4
             Sources of Exclusion Information
             OIG makes exclusion information available on its Web site. OIG also
             provides exclusion information to a number of other agencies that in turn
             make the information available through databases they administer.
             List of Excluded Individuals and Entities (LEIE). When OIG excludes a
             provider from participation in federally funded health care programs, it
             enters information about the provider into the LEIE, a database that houses
             information about all excluded providers. This information includes the
             provider’s name, address, provider type, and the basis of the exclusion.
             The LEIE is available to search or download on the OIG Web site and is
             updated monthly. To protect sensitive information, the downloadable
             information does not include unique identifiers such as Social Security
             numbers (SSN), Employer Identification numbers (EIN), or National
             Provider Identifiers (NPI).
             Excluded Parties List System (EPLS). The General Services
             Administration (GSA) maintains the EPLS, which includes information
             regarding parties debarred, suspended, proposed for debarment, excluded,
             or otherwise disqualified from receiving Federal funds. All Federal
             agencies are required to send information to the EPLS on parties they have
             debarred or suspended as described above; OIG sends monthly updates of
             the LEIE to GSA for inclusion in the EPLS. The EPLS does not include
             any unique identifiers; it provides only the name and address of excluded
             entities. If EPLS users believe that they have identified an excluded
             entity, they should confirm the information with the Federal agency that
             made the exclusion.




             2
             3
               42 CFR Section 1001.1901.
                  42 U.S.C. 1320a-7a(a)(6).
             4
               The limited exceptions are described in 42 CFR § 1001.1901(c); authority to grant waivers is set forth in
             § 1128(d)(3)(B)(i) of the Social Security Act (42 U.S.C. 1320a-7(d)(3)(B)(i)).


OEI-07-09-00630            Excluded Providers in Medicaid Managed Care Entities                                            2
             Medicare Exclusions Database (MED). CMS maintains the MED as a
             way of providing exclusion information to its stakeholders, including State
             Medicaid agencies and Medicare contractors. 5 OIG sends monthly
             updates of the LEIE to CMS. CMS uses the OIG updates to populate the
             MED (formerly Publication 69). Unlike the LEIE and the EPLS, the MED
             includes unique identifiers (e.g., SSNs, EINs, NPIs), but is available only
             to certain users to protect sensitive information.
             National Practitioner Data Bank (NPDB). The NPDB, maintained by the
             Health Resources and Services Administration, is an information
             clearinghouse containing information related to the professional
             competence and conduct of physicians, dentists, and other health care
             practitioners. OIG reports exclusions to the NPDB monthly. Although the
             NPDB includes unique identifiers, to protect sensitive information it is
             available only to registered users whose identities have been verified. The
             NPDB will also include information that is in the Healthcare Integrity and
             Protection Data Bank (HIPDB) when the two data banks are
             consolidated. 6 The HIPDB is also a source of exclusion information.
             State Sanctions and Licensure Databases. States have authority to
             exclude providers from their Medicaid programs. 7 Many States maintain a
             database—often called a State sanctions list—of providers that they have
             excluded. State sanctions lists may also include OIG-excluded providers.
             Many States also maintain databases of providers to whom they have
             issued licenses; if a provider loses his or her license because of exclusion,
             either by OIG or by a State, the licensing database reflects that status.
             Data included in these databases vary by State.
             CMS Guidance to State Medicaid Agencies
             In a State Medicaid Director letter dated May 16, 2000, CMS reminded
             States to check Publication 69 (the forerunner of the MED) to ensure that
             no excluded providers receive Medicaid payments. A subsequent State
             Medicaid Director letter dated June 12, 2008, clarified that while States




             5
               The MED contains information on all OIG-excluded providers and is used by stakeholders of multiple CMS
             programs, including Medicaid managed care plans.
             6
               Section 6403 of the Patient Protection and Affordable Care Act (P.L. 111-148) amended § 1128E of the Social
             Security Act to provide for consolidating the HIPDB information into the NPDB and terminating the HIPDB.
             Implementation was to occur not later than 1 year after enactment (March 23, 2010) or the effective date of final
             regulations, whichever occurred later. Final regulations have not been issued as of the date of this report.
             7
               Under § 1902(p)(1) of the Social Security Act (42 U.S.C. 1396a(p)(1)), a State may exclude a provider from
             the State Medicaid program for any reason that OIG could exclude a provider from Federal health care
             programs.


OEI-07-09-00630          Excluded Providers in Medicaid Managed Care Entities                                               3
             may delegate many provider enrollment or credentialing 8 functions to
             MCEs, each State remains responsible for ensuring that it and its
             contracted MCEs do not pay an excluded provider for Medicaid-funded
             health care items or services. Most recently, on January 16, 2009, CMS
             issued a State Medicaid Director letter advising States of their obligations
             to direct providers to screen their employees and contractors for excluded
             persons. The letter advised States to communicate these obligations to
             providers on enrollment in Medicaid, to require compliance as a condition
             of enrollment, and to require providers to conduct monthly searches of
             OIG’s LEIE.
             Related Studies
             Two previous OIG studies examined Medicare provider exclusions. In
             August 2000, OIG reported that for a subset of excluded providers
             (1,594) for which unique numerical identifiers were available (Unique
             Physician Identification Number and/or SSNs), Medicare made improper
             payments totaling $35,833 to 21 physicians over the course of 1 year. The
             study also found that Medicare contractor staff responsible for making
             payments to providers raised some concerns regarding the timeliness,
             completeness, and reliability of exclusion data. 9 In May 2010, OIG
             reported that 188 OIG-excluded Medicaid providers had, prior to their
             exclusion, enrolled in 26 State Medicaid programs. This study identified
             potential weaknesses in States’ provider enrollment procedures by
             examining whether these providers had questionable financial and
             criminal histories prior to enrolling in Medicaid. Twenty-four of these
             188 excluded providers had histories of tax debt, criminal convictions, or
             false disclosures prior to enrolling as Medicaid providers. 10 OIG
             concluded that additional reviews and oversight were warranted to ensure
             that Medicaid enrollment standards are sufficient to protect the program
             from fraud and abuse.

             METHODOLOGY
             We used mixed methods, including data matches, interviews, and reviews
             of contracts, to conduct this evaluation. We conducted data matches to
             identify excluded providers. We then interviewed MCE and State staff
             about the safeguards that prevent excluded providers from enrolling in
             Medicaid. We also reviewed the contracts between the MCEs and the

             8
               Credentialing is a general term for the process of ensuring that a provider is qualified to participate in a
             particular program. Specific qualifications vary by MCE and State, but credentialing generally includes
             checking a provider’s exclusion status, ensuring that a provider has a valid license, and verifying a provider’s
             education,
             9           training, criminal history, and ownership information.
               Medicare Payments to OIG Excluded Physicians (OEI-07-98-00380).
             10
                  Excluded Medicaid Providers: Analysis of Enrollment (OEI-09-08-00330).


OEI-07-09-00630           Excluded Providers in Medicaid Managed Care Entities                                                  4
             States for information relating to safeguards. We looked for relationships
             between the presence of safeguards and the presence of excluded
             providers in each network, but found no such relationships. Finally, we
             asked the MCEs to provide information on payments made to each
             excluded provider that we identified.
             Scope
             The data matches we conducted between the OIG exclusion data and MCE
             provider network data included all providers enrolled in the networks of
             the selected MCEs. We did not independently verify whether these
             providers had contracts with the MCEs in question, nor did we determine
             whether the excluded providers that we identified had received payments
             from other federally funded health care programs, such as Medicare. The
             OIG exclusion data used in these data matches included information on
             OIG-excluded providers; the data do not include State-excluded providers
             or providers listed on the EPLS or the NPDB but not also listed in the
             LEIE.
             This evaluation was limited to those enrolled in the provider networks of
             the MCEs selected for this study; in another study, we will evaluate the
             extent to which excluded individuals are employed by the reviewed
             providers. 11
             Identification of OIG-Excluded Providers
             We collected OIG exclusion data representing all providers excluded at
             any time from January 1 through December 31, 2009. 12 These data
             included providers whose exclusions began before or during the review
             period. In addition to the periods of exclusion, OIG’s exclusion data
             included each provider’s name, provider type, provider specialty, date of
             birth (for individual providers), address, State, SSN or EIN, Medicaid
             provider number, and/or NPI. The data also included the dates of any
             reinstatements for the excluded providers.
             Selection of MCEs
             We selected 12 MCEs for inclusion in this study based on our review of
             data included in the 2008 National Summary of State Medicaid Managed
             Care Programs and the 2008 Medicaid Managed Care Enrollment



             11
                In this study, we determined whether the providers enrolled in the selected MCEs were excluded. Providers
             who receive Medicaid funds are also required to screen their employees for excluded individuals, as stated in
             the State Medicaid Director letter dated January 16, 2009. We will evaluate the extent to which excluded
             individuals are employed by the MCE providers in another study (OEI-07-09-00632). Data collection for this
             evaluation began in January 2012.
             12
               This data was collected from the same database used to populate the LEIE; however, the SSNs and EINs that
             we obtained are not available in the downloadable version of the LEIE.


OEI-07-09-00630         Excluded Providers in Medicaid Managed Care Entities                                             5
             Report. 13 We selected MCEs that represented a variety of covered
             services, operating authorities, and managed care types, as shown in
             Appendix A. 14 We excluded primary care case management plans. 15 The
             12 MCEs that we selected provided services in 10 States: Alabama,
             California, Georgia, New York, Ohio, Oklahoma, Oregon, Tennessee,
             Texas, and Washington. They represent 15.8 percent of total Medicaid
             national managed care enrollment in 2008. 16
             Identification of MCE Providers
             From each selected MCE, we requested data on all providers that were
             enrolled in the MCE’s provider network from January 1 through
             December 31, 2009. These data included providers whose enrollment
             began before or during the review period. In addition to beginning and
             ending dates of enrollment, these data included each provider’s name
             and/or business name, provider type, provider specialty, date of birth
             (if applicable), address, State, SSN or EIN, Medicaid provider number,
             and NPI.
             Identification of Excluded MCE Providers
             To identify any excluded providers that were enrolled in the selected
             MCEs’ provider networks, we matched the OIG exclusion data to the
             MCE provider network data, primarily using SSN or EIN. If an SSN or
             EIN was not available for a particular provider, we attempted to match the
             OIG exclusion data and MCE provider network data using other
             identifying information, such as the Medicaid provider number, NPI, or
             name and date of birth. For the excluded providers identified, we
             compared their exclusion dates and reinstatement dates, if any, to the
             beginning and ending dates of their enrollment in the selected MCE. We
             also asked MCE officials:
             •    how each excluded provider enrolled in their network;



             13
                The National Summary of State Medicaid Managed Care Programs provides descriptions of all Medicaid
             managed care programs in all States. The Medicaid Managed Care Enrollment Report provides enrollment data
             by State and by MCE for all Medicaid managed care programs in all States. Both documents are published
             annually by CMS.
             14
                States can establish contracts with different types of MCEs to provide specific subsets of services—for
             example, covered services can be limited to inpatient, mental health, or transportation services. Different
             sections of the Social Security Act authorize States to contract with different types of MCEs. These sections are
             known as operating authorities.
             15
                Primary care case management (PCCM) is a system under which a State contracts to furnish case
             management services (which include the location, coordination, and monitoring of primary health care services)
             to Medicaid recipients. We excluded PCCM plans from our study because in some cases States contract
             directly with the providers; a third-party plan is not always involved.
             16
               Although the scope of our study is 2009, only 2008 data were available at the time of MCE selection. In
             2009, the 12 selected MCEs represented 15.8 percent of national Medicaid managed care enrollment.


OEI-07-09-00630          Excluded Providers in Medicaid Managed Care Entities                                               6
             •    whether each excluded provider’s services fit one of the limited
                  exceptions, or if the excluded provider had been granted a waiver, and
                  for documentation to support any exception or waiver; and
             •    the total amount paid to each excluded provider for services to
                  Medicaid recipients in 2009.
             Finally, we looked for trends or patterns in the characteristics of the
             excluded providers we identified in MCE provider networks, but we found
             no such trends or patterns.
             Identification of MCE Safeguards
             We conducted structured interviews with officials from the 12 selected
             MCEs to determine the extent to which they had implemented safeguards
             to ensure that excluded providers were not enrolled in their provider
             networks. We also asked if they had difficulties or concerns regarding the
             exclusions data available to them. We looked for relationships between
             MCE safeguards and the number of identified excluded providers in
             provider networks, but we found none.
             Identification of State Safeguards
             We conducted interviews with 1 or more Medicaid officials in the
             10 States in which the 12 selected MCEs operate. These interviews
             identified the safeguards that States use to prevent excluded providers
             from enrolling in MCE provider networks and also identified difficulties
             or concerns State officials had with the exclusions data available to them.
             We looked for relationships between State safeguards and the number of
             excluded providers in MCE provider networks, but we found none.
             Review of Contracts
             We collected and reviewed copies of the contracts between the States and
             the selected MCEs for information relating to safeguards used to prevent
             excluded providers from enrolling in MCE provider networks. We looked
             for relationships between contract requirements and the number of
             excluded providers in MCE provider networks, but we found none.
             Limitations
             We selected a purposive sample of 12 MCEs for this study. The results
             can be applied only to the 12 MCEs that were reviewed; they cannot be
             projected to any other MCEs or States.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-07-09-00630       Excluded Providers in Medicaid Managed Care Entities                 7
             FINDINGS
             Four of the twelve MCEs reviewed had 11 excluded
             providers enrolled in their provider networks; 4 of
             these providers were paid a total of $40,306
             We identified 11 excluded providers in the networks of 4 MCEs. A
             total of $40,306—a State share of $19,755 and a Federal share of
             $20,551—was paid to 4 of the 11 providers after the dates of their
             exclusions by 2 MCEs (i.e., MCEs 1 and 2 in Table 1 below). We
             identified these providers by checking the 277,835 providers enrolled in
             the 12 selected Medicaid MCEs against the 45,432 OIG-excluded
             providers as of January 1, 2009. Table 1 shows the amounts paid to the
             four providers. The 11 excluded providers identified were as follows:
             5 physicians, 3 durable medical equipment (DME) suppliers,
             2 pharmacies, and 1 mental health clinic. Their dates of exclusion ranged
             from December 18, 1997, to April 20, 2009.
             Table 1: Payments to Excluded Providers

                                 Provider        Total Payments              State     Federal
              MCE
                                    Type                 in 2009            Share       Share

                  MCE 1      Physician (M.D.)               $26,044.12   $13,022.06   $13,022.06

                  MCE 1      Physician (M.D.)               $11,100.58    $5,550.29    $5,550.29

                  MCE 1      Physician (M.D.)                  $372.10     $186.05      $186.05

                  MCE 2        DME supplier                  $2,788.75     $996.14     $1,792.61

                  Total:                                    $40,305.55   $19,754.54   $20,551.01

             Source: MCE reports of payment information to OIG, 2009.

             Seven of the eleven excluded providers were enrolled in MCE provider
             networks, according to the data that MCEs gave us, but rendered no
             services and received no payments during the period of our review.
             For five of these seven providers, the corresponding MCEs—MCEs 1
             and 3—explained that the providers had joined their networks through
             their acquisitions of other MCEs and had not yet signed contracts with the
             new MCE, or the providers had simply not been removed from the
             enrollment data when their last contracts expired or were terminated. It is
             unclear whether these providers would have been paid if they had
             submitted requests for reimbursement to the MCEs. For the remaining
             two providers, staff from MCE 4 stated that they did not pay any claims
             but did not explain further.




OEI-07-09-00630            Excluded Providers in Medicaid Managed Care Entities                    8
             Gaps in provider credentialing processes and LEIE
             information contributed to the enrollment of excluded
             providers
             The four MCEs that had excluded providers in their networks gave the
             following explanations about those enrollments.
             MCE 1. This MCE confirmed that five physicians enrolled in its network
             were excluded. Upon investigation, the MCE found that its credentialing
             department had correctly identified the excluded providers. However, the
             information was not entered into the MCE’s provider database. This MCE
             reported that it has taken steps to streamline the process and create greater
             accountability to prevent excluded providers from enrolling in the
             network.
             MCE 2. A second MCE confirmed that one DME provider enrolled in its
             network was excluded. MCE officials explained that an external
             contractor credentials providers in the MCE’s network, including checking
             providers’ exclusion status. The contractor follows the guidelines of a
             national organization for improving health care quality in identifying what
             types of providers require credentialing. The MCE explained that these
             guidelines do not require DME providers to be credentialed and, therefore,
             this provider was not credentialed upon enrolling in the network.
             Regardless of external organizations’ guidelines, this MCE was prohibited
             by its contract with the State from enrolling excluded providers in its
             Medicaid provider network.
             MCE 3. A third MCE confirmed that two excluded DME providers and an
             excluded mental health clinic were enrolled in its provider network. These
             three providers joined the MCE’s network when it acquired another MCE
             in October 2005. These providers’ contracts were assigned to the MCE as
             part of the acquisition. The providers were not recredentialed during the
             acquisition, and therefore the MCE was not aware of their exclusion
             status.
             MCE 4. The fourth MCE confirmed that two excluded pharmacies were
             enrolled in its network. The MCE explained that it had mistakenly
             identified the pharmacies as “false positive” matches with the LEIE and
             had allowed them in its network despite their exclusion status. The MCE
             further explained that the downloadable file from the OIG Web site does
             not contain unique identifiers such as a National Association of Boards of
             Pharmacy number or an NPI. Therefore, the MCE matches records
             without such unique identifiers based on specific criteria. The match
             criteria this MCE used for pharmacies are the first 10 characters of the
             pharmacy name and the ZIP Code, or the first 10 characters of the
             pharmacy address and the ZIP Code. Comparisons between two databases

OEI-07-09-00630      Excluded Providers in Medicaid Managed Care Entities                9
             based on nonunique identifiers, such as names or portions of addresses,
             will likely produce “false positive” matches. For example, common
             names, such as John Smith, are likely to appear in both databases even if
             the records associated with the name John Smith in each database
             reference different individuals. Therefore, the comparison between the
             two databases will yield a match, but the match will be incorrect—a “false
             positive.” Officials from this MCE stated that each month, that staff must
             manually review approximately 100 matches based on names or addresses.
             Despite the additional steps necessary to confirm whether matches are
             false positives, this MCE was still obligated to confirm that no excluded
             pharmacies were enrolled in its network.
             The MCEs for all four networks in which we identified excluded providers
             reported that they have removed the providers from their networks.

             All 12 MCEs and all 10 States reviewed had safeguards
             to identify excluded providers; the specific safeguards
             varied among MCEs and States
             All selected MCEs and the Medicaid agencies in 10 States had safeguards
             to prevent excluded providers from enrolling in their provider networks.
             In our review of the contracts between States and MCEs, we found that all
             contracts reiterated the prohibition on enrolling or using excluded
             providers in federally funded health care programs; however, the contracts
             did not specify how the MCEs should identify excluded providers to avoid
             enrolling them.
             MCE safeguards. The safeguard most commonly used by the selected
             MCEs to prevent excluded providers from enrolling in their networks was
             checking the LEIE. Eleven of the twelve selected MCEs checked the
             LEIE. 17 Other databases that the 12 selected MCEs used to identify
             excluded providers included the EPLS, the MED, the NPDB, and the State
             sanctions or licensure databases. MCE officials indicated that these
             databases are checked at providers’ initial enrollment and rechecked at
             varying frequencies ranging from monthly to every 3 years. Tables 2 and
             3 show how many of the selected MCEs check each database, and how
             frequently these MCEs recheck each database for providers enrolled in
             their networks. We did not identify any relationship between the
             databases checked, or the frequency at which they were checked, and the
             presence of excluded providers in a particular MCE’s network.


             17
                The one MCE that did not check the LEIE provided only inpatient hospital services and enrolled only
             hospitals in its provider network. Rather than have its staff check the exclusion status of each enrolled hospital,
             the MCE required that every enrolled hospital be accredited by the State hospital association. One of the
             requirements for accreditation was not being excluded.


OEI-07-09-00630          Excluded Providers in Medicaid Managed Care Entities                                                10
             Table 2: Number of MCEs Checking Databases at Initial Enrollment

                                                                                                                  State
                                                                                      NPDB/            Sanctions or
                                          LEIE          EPLS             MED
                                                                                      HIPDB                Licensure
                                                                                                            Database

                  Checked                     14                6              5               7                        8

                  Not checked                  1                8             10               7                        7

                  No response                 0*                1              0               1                        0

             Source: OIG interviews with selected MCEs, 2009.

             *Note: The columns add up to a total of 15, rather than 12 MCEs. This is because the MCE in Washington was
             separated into four regional plans, each with slightly varying safeguards in use.



             Table 3: Frequency of MCEs Checking Databases After Initial Enrollment

                                                                                                                  State
                                                                                      NPDB/            Sanctions or
                                         LEIE          EPLS              MED
                                                                                      HIPDB                Licensure
                                                                                                            Database

                  Monthly                     9               4               4               1                         4

                  Yearly                      2               0               0               0                         0

                  Every 3 years               3               2               1               4                         3

                  Upon receipt of
                                              0               0               0               2                         1
                  updates*

                  Never                       1               8              10               7                         7
             Source: OIG interviews with selected MCEs, 2009.

             *Note: The NPDB and HIPDB offer a service to subscribers that supplies information on particular individuals as it is
             entered into the database. Two MCEs took advantage of these services to receive in real time any information entered
             into these databases on all of their enrolled providers. One State updated its State sanctions list in the same way,
             sending out updates to subscribers as they occurred.


             State safeguards. Six of the ten States that contracted with the selected
             MCEs required that providers seeking enrollment in MCE networks first
             enroll in the State’s fee-for-service Medicaid program. 18 The checks that
             these six States conducted on providers enrolling in the fee-for-service
             program were similar to those that MCEs conducted on providers
             enrolling in their networks. In effect, providers in MCE networks in these


             18
                Two minor variations in this requirement were found among the six States. In one State, approximately
             1 percent of providers enrolled in the MCE were not also enrolled as fee-for-service providers. In another State,
             the only provider type that the MCE was allowed to enroll was community mental health centers (CMHCs).
             This State required CMHCs to undergo an extensive State licensing process, rather than requiring them to enroll
             in the fee-for-service Medicaid program.


OEI-07-09-00630              Excluded Providers in Medicaid Managed Care Entities                                           11
             six States underwent two complete checks, one conducted by the State and
             one conducted by the MCE. Two other States maintained a State database
             that combined several sources of exclusion information (e.g., LEIE, MED,
             State sanctions list) and made these databases available to their contracted
             MCEs. In the two remaining States, which contracted with MCEs to
             provide transportation services, each provider of transportation services
             was required to undergo a check for any exclusions and an extensive
             background check.




OEI-07-09-00630      Excluded Providers in Medicaid Managed Care Entities             12
             RECOMMENDATIONS
             Our review identified 11 excluded providers in the networks of 4 of the
             12 MCEs that were included in this study. Although Medicaid and other
             Federally funded health care programs are prohibited from paying for any
             items or services furnished, ordered, or prescribed by an excluded
             provider, 2 MCEs paid a total of $40,306 to 4 of these 11 providers.
             Although all 12 MCEs had safeguards to prevent excluded providers from
             enrolling in their networks, various factors—such as gaps in the MCEs’
             provider credentialing processes—led to their inclusion in the networks.
             We recognize that the number of excluded providers that we identified is
             small. Further, we note that CMS issued State Medicaid Director letters in
             2000, 2008, and 2009 reminding States of their obligation to ensure that
             no excluded providers receive Medicaid payments.
             To ensure that no excluded providers receive Federal health care funds
             through Medicaid managed care contracts, we recommend that CMS:
             Periodically remind States of their obligation to ensure that no
             excluded providers receive Medicaid payments
             To fulfill this recommendation, CMS could develop a State Medicaid
             Director letter as it has done in the past. The letter could include
             information from this report on how certain failures led to the inclusion of
             excluded providers in MCE provider networks. Such failures could
             include failure to communicate information about excluded providers
             between credentialing and enrollment staff; failure to check the exclusion
             status of all providers entering networks because of gaps in external
             organizations’ guidelines; or failure to check the exclusion status of
             providers entering networks as a result of one MCE acquiring another.
             Alternatively, CMS could include this information in the next State
             Program Integrity Review Summary report.
             We are reviewing the excluded providers we identified and the MCEs in
             which they were enrolled to determine appropriate action.

             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
             RESPONSE
             In its written comments on the report, CMS acknowledged that continuing
             review and improvement is always needed and discussed ongoing CMS
             activities. In response to the recommendation in the draft report, CMS
             stated that it “does not concur that the particular suggestions contained in
             the report are warranted.” CMS also stated that the findings did not
             indicate any systemic failings and that the cost of implementing the


OEI-07-09-00630      Excluded Providers in Medicaid Managed Care Entities              13
             OIG-suggested actions would outweigh the benefits that would accrue
             from those actions.
             In 2009, fewer than 46,000 of the millions of U.S. health providers were
             federally excluded, yet 11 of these excluded providers found their way
             into the handful of MCE provider networks we reviewed. OIG does not
             exclude providers lightly; the 11 providers we identified were excluded
             because they were convicted of health care-related crimes. Therefore,
             payments to these providers are more serious than simple payment errors.
             Furthermore, in its 2009, 2010, and 2011 State Program Integrity Review
             Summary reports, CMS highlighted effective practices as well as
             inadequacies in States’ processes to identify excluded providers both in
             fee-for-service Medicaid and Medicaid managed care. This indicates that
             CMS is also seeking ways to identify and prevent excluded providers from
             participating in Medicaid.
             In the draft report, we recommended that CMS develop processes to allow
             MCEs to efficiently check their entire provider networks to prevent
             excluded providers from enrolling or remaining in their networks. We
             revised the recommendation and the suggested actions to implement it
             based on CMS comments.
             We ask that in its final management decision, CMS indicate whether it
             concurs with our revised recommendation and suggested actions, and what
             steps, if any, it will take to implement the recommendation.
             The full text of CMS’s comments can be found in Appendix B.




OEI-07-09-00630     Excluded Providers in Medicaid Managed Care Entities           14
                             APPENDIX A
                             Table A-1: Selected Medicaid Managed Care Entities

                                                                                                                       Social
                                                                                                                                   Number of
                                             Name of Managed               Type of                                Security Act
State                   Program Name                                                     Covered Services                         Enrollees in
                                                  Care Entity         Managed Care                                  Operating
                                                                                                                                         2008
                                                                                                                    Authority


                    Partnership Hospital    Partnership Hospital     prepaid inpatient
Alabama                                                                                     inpatient hospital         1915(a)         484,288
                               Program                 Program            health plan

                                                     Health Net
                        Two-Plan Model              Community          managed care                                    1915(b),
California                                                                                   comprehensive                             528,037
                              Program            Solutions, Inc.-       organization                                    1932(a)
                                                         TPMP

                        Two-Plan Model          LA Care Health         managed care                                    1915(b),
California                                                                                   comprehensive                             741,817
                              Program                    Plan           organization                                    1932(a)


                       Non-Emergency            Non-Emergency                prepaid
                                                                                              nonemergency
Georgia                 Transportation           Transportation           ambulatory                               1902(a)(70)      1,167,887
                                                                                               transportation
                    Brokerage Program        Brokerage Program            health plan


                      Partnership Plan -           NYS Catholic        managed care
New York                                                                                     comprehensive                1115         270,393
                     Family Health Plus             Health Plan         organization


                Full-Risk Managed Care                                 managed care
Ohio                                                CareSource                               comprehensive             1932(a)         607,118
                              Program                                   organization


                                                                             prepaid
                                                                                              nonemergency
Oklahoma                    SoonerRide          Logisticare, Inc.         ambulatory                               1902(a)(70)         510,768
                                                                                               transportation
                                                                          health plan


                                                                       managed care
Oregon          Oregon Health Plan Plus        CareOregon, Inc.                              comprehensive                1115         107,294
                                                                        organization


                                                                       managed care
Tennessee                   TennCare II             Americhoice                              comprehensive                1115         525,185
                                                                        organization


                                                    First Health
                                                                    pharmacy benefit
Tennessee                   TennCare II                Services                           prescription drugs              1115      1,207,136
                                                                           manager
                                                    Corporation


                                                                       managed care
Texas                             STAR              Amerigroup                               comprehensive             1915(b)         333,423
                                                                        organization


                Integrated Mental Health       Regional Support      prepaid inpatient
Washington                                                                                     mental health           1915(b)         858,331
                               Services                Network            health plan


                                                                                                                                    6,134,541
   Total:

Source: 2008 National Summary of State Medicaid Managed Care Programs; 2008 Medicaid Managed Care Enrollment Report.




            OEI-07-09-00630                Excluded Providers in Medicaid Managed Care Entities                                   15
                             APPENDIX B
                             Agency Comments


     ....v_
    ""        '<0,


(        ~	DEPARTMENT OF HEALTH" HUMAN SERVICES                                                Cente", for Medicare & Medicaid Services

    -.,"Sz\...o.                                                                               Administrator
                                                                                               Washington, DC 20201

                     DATE:          SEP 0 8 2011

                     TO: 	         Daniel R. Levinson 

                                   Inspector General 

                                                               /S/
                     FROM: 	       Donald M, Berwick, M,D. 

                                   Administrator 


                     SUBJECT: 	 Office ofInspector General (OIG) Draft Report: Excluded Providers in Medicaid
                                Managed Care Entities (OEI-07-09-00630)


                     TIle Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to comment
                     on this subject OIG draft report, The purpose of the report was to determine the extent to which
                     selected--(l) Medicaid managed care entities (MCEs) enrolled OIG-excluded individuals and
                     entities in their provider networks in 2009; and (2) Medicaid MCEs and States have safeguards
                     in place to prevent excluded individuals and entities from enrolling in Medicaid managed care
                     provider networks, For 12 selected MCEs, the 010 matched OIG exclusions data and MCE
                     provider network data to identify excluded providers, and then requested each MCE to provide
                     information on payments made to those excluded providers. The 010 also interviewed MCE and
                     State Medicaid staff, and reviewed contracts between MCEs and States to identify the safeguards
                     which prevented excluded providers from enrolling in Medicaid programs, In total, 10 States
                     were reviewed.

                     The OIG's report found that four of the twelve MCEs reviewed had 11 total excluded providers
                     enrolled in their provider networks. Seven did not bill and the remaining four of these 11
                     excluded providers were paid a total of $40,306, The OIG report also found that all 12 MCEs
                     and all 10 States reviewed had safeguards in place to identify excluded providers, although the
                     specific safeguards varied among MCEs and States,

                     OIG Recommendation

                     The OIG recommended that CMS should work with the States to develop processes that allow
                     MCEs to efficiently check their entire provider networks to prevent excluded providers from
                     enrolling or remaining in their networks,

                     The OIG also made the following suggestions as to how CMS could implement this
                     recommendation:

                         • 	 CMS could encourage States to make the Medicare Exclusion Database (MED) available
                             directly or indirectly (through States) to Medicaid MCEs, or by encouraging States to
                             check MCE provider network data against the MED. The unique identifiers available in
                             the MED could reduce errors associated with name-based matches necessitated by the




OEI-O?-09-00630                         Excluded Providers in Medicaid Managed Care Entities                                          16
             Agency Comments (Continued)




OEI-07-09-00630     Excluded Providers in Medicaid Managed Care Entities   17
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Brian T. Pattison, Regional
             Inspector General for Evaluation and Inspections in the Kansas City
             regional office, and Deborah K. Walden, Deputy Regional Inspector
             General.
             Michala Walker served as the team leader for this study. Other principal
             Office of Evaluation and Inspections staff from the Kansas City regional
             office who contributed to the report include Michael Barrett and
             Rae Hutchison; central office staff who contributed include Kevin Manley
             and Kevin Farber.




OEI-07-09-00630      Excluded Providers in Medicaid Managed Care Entities            18
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
